OIG Investigative Reports, Davenport, IA December 14, 2010 -Final Two Sentenced for Accessing President's Student Loan Records
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Nicholas A. Klinefeldt
Southern District of Iowa
FOR IMMEDIATE RELEASE:
Tuesday. December 14, 2010
www.justice.gov/usao/ias
Contact: Kevein VanderSchel
(515) 473-9300
Kevin.VanderSchel@usdog.gov
Final Two Sentenced for Accessing President’s Student
Loan Records
DAVENPORT, IA- On December 13, 2010, Sandra Teague, a.k.a., Sandra Teague-
Garvis, age 54, of Iowa City, Iowa, was sentenced to two years probation, six months of which is
to be served on home confinement, based on her conviction for one count of exceeding
authorized computer access, announced United States Attorney Nicholas A. Klinefeldt. United
States District Judge James E. Gritzner also ordered that Teague pay an assessment of $25 to
Crime Victims Fund.
Teague, a former Department of Education (DOE) contract employee, had been charged
with accessing without authorization the student loan records of President Barack Obama in
2008 when he was a candidate for the presidency. Teague was convicted on August 25, 2010,
following a jury trial.
Another defendant, Andrew Lage, age 54, of Iowa City, Iowa, was sentenced to one year
probation and ordered to pay an assessment of $25 to the Crime Victims Fund for similar
unauthorized access to the President’s student loan records. Lage had entered a guilty plea on
September 23, 2010.
The activities of Teague and Lage and seven other defendants came to light when the
United States Department of Education, Office of Inspector General (DOE-OIG), began an
investigation to determine if its employees or those of its contractors had inappropriately
accessed the student loan information of certain celebrities or well-known political and sports
figures. DOE-OIG determined that on a number of occasions, unauthorized access to the
National Student Loan Data System (NSLDS) database had originated with Vangent Corporation
in Coralville, Iowa. Vangent, a DOE contractor, assisted with student loan inquiries via their call
center and engaged in debt collection.
As a result, nine former employees of Vangent were charged with exceeding authorized
computer access. All nine accessed President Obama’s student loan information while he was a
candidate for the presidency, President-Elect, or President of the United States. With the
exception of Teague, all of the defendant entered guilty pleas.
At her trial, Teague claimed that someone stole her unique NSLDS identifier and
password to access President Obama’s information. The jury deliberated for just over an hour
before finding her guilty.
This investigation was conducted by the United States Department of Education, Office
of Inspector General, and was prosecuted by the U.S. Attorney’s Office for the Southern District
of Iowa.
# # # #
Top
Printable view
Last Modified: 12/15/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov